                                                                                  October 10, 2013


The Honorable John Kerry
  Secretary of State

The Honorable Chuck Hagel
  Secretary of Defense

The Honorable Rajiv Shah
  Administrator, U.S. Agency for International Development


Dear Secretary Kerry, Secretary Hagel, and Administrator Shah:

Since my appointment by the President over a year ago, I have been concerned about the impact of the
coalition troop drawdown on security and the related implications for ensuring adequate oversight of
the U.S.-funded reconstruction effort in Afghanistan. The recent attack at the Herat Consulate
illustrates the dangerous environment we must all confront as we plan for the future. Therefore, I am
writing to request information that will assist SIGAR as we consider the best approaches for carrying
out our oversight mandate in Afghanistan’s changing security landscape, coordinating our efforts with
other inspectors general, and ultimately helping the U.S. government mitigate the risks associated
with shrinking oversight access.

In the course of SIGAR’s work, U.S. officials have told us that it is often difficult for program and
contracting staff to visit reconstruction sites in Afghanistan. SIGAR personnel have direct experience
with this problem, having already encountered difficulty obtaining military escort to travel into
contested areas. For example, earlier this year SIGAR was unable to visit infrastructure projects in
northern Afghanistan valued at $72 million because they are located in areas that could not be reached
by U.S. civilian employees. SIGAR is referring to these inaccessible reconstruction sites as areas
outside of the “oversight bubbles.” The areas covered by these “oversight bubbles” are defined by the
ability of the U.S. government to provide both adequate security and rapid emergency medical support
to civilian employees traveling to the area.

It is clear that everyone working in Afghanistan, including SIGAR, will struggle to continue providing
the direct U.S. civilian oversight that is needed in Afghanistan. U.S. military officials have told us that
they will provide civilian access only to areas within a one-hour round trip of an advanced medical
facility. Although exceptions can be made to this general policy, we have been told that requests to
visit a reconstruction site outside of these “oversight bubbles” will probably be denied. Similarly,
State Department officials have warned us that their ability to reach reconstruction sites will be
extremely limited due to constraints on providing emergency medical support without assistance from
the Department of Defense (DOD). They have also warned us about the challenges of providing
adequate protection to civilians traveling in unsecure areas.
Significant portions of Afghanistan
are already inaccessible to SIGAR,
other inspectors general, the
Government Accountability Office,
and other U.S. civilians conducting
oversight, such as contracting
officers. SIGAR believes this
constraint on oversight will only
worsen as more U.S. and coalition
bases close. The map shown to the
right and those attached to this letter
illustrate SIGAR’s concerns. 1
Although it is difficult to predict the
future of the U.S. presence in
Afghanistan, it is likely that no more
than 21 percent of Afghanistan will
be accessible to U.S. civilian
oversight personnel by the end of the
transition, a 47 percent decrease
since 2009. 2 We have also been told by State Department officials that this projection may be
optimistic, especially if the security situation does not improve.

During my trips to Afghanistan, I have talked to military and civilian officials who are working hard
to develop alternative means to help protect the U.S. taxpayers’ investment. For example, the U.S.
Agency for International Development (USAID) mission in Afghanistan is exploring how to use third-
party monitors to help oversee reconstruction sites. Additionally, State Department personnel are
contemplating how to expand oversight access by periodically deploying emergency medical and
security forces to the edge of the “oversight bubbles.” Even if these alternative means are used to
oversee reconstruction sites, direct oversight of reconstruction programs in much of Afghanistan will
become prohibitively hazardous or impossible as U.S. military units are withdrawn, coalition bases
are closed, and civilian reconstruction offices in the field are closed.

To help the U.S. prepare for these challenges, SIGAR will conduct audits and begin other initiatives to
examine the consequences of restricted oversight in Afghanistan. For example, we intend to conduct


     1
       The attached maps were prepared by the U.S. Army Geospatial Center based on its own information and
     information provided to SIGAR by DOD and State Department officials. Specific locations and other technical
     detail in the source documents have been omitted for security reasons. The maps for 2009, 2011, and 2013 were
     prepared using historical information. The December 2014 map shows the possible oversight access at the end
     of transition based on current U.S. government assessments, which may change based on ongoing negotiations
     with the Government of the Islamic Republic of Afghanistan or adjustments to U.S. plans as the transition
     continues.
     2
      The 21 percent figure may be too high. The oversight access shown on the attached maps presents a best-case
     scenario where weather, terrain, and security conditions pose no serious threat to helicopter medical evacuation
     missions.


SIGAR 14-4-SP/Oversight Bubble Inquiry                                                                         Page 2
an audit of third-party monitoring efforts at USAID, and we intend to use the geospatial project
information provided earlier this year to analyze the oversight risks for U.S. reconstruction projects. 3

However, we will need additional information and assistance to properly analyze risks and prepare for
shrinking oversight access. Therefore, please provide the following information:

     1. What lessons learned from conducting oversight in high-risk security environments, such as
        Iraq and Pakistan, can your organizations apply to Afghanistan?

     2. Will your organizations have major programs or projects—major in terms of dollar value ($5
        million or greater) or because they are mission critical—under way outside of the “oversight
        bubbles” at the end of this calendar year? If so, please indicate the program or project name,
        location, dollar value, implementing partner if applicable, and expected completion date.

     3. What new programs or projects will your organizations launch that will be outside of the
        “oversight bubbles” projected to exist at the end of the transition in December 2014? Please
        indicate the program or project name, location, dollar value, implementing partner if
        applicable, and expected completion date.

     4. For current or new programs or projects that will be outside the “oversight bubbles” at the
        end of the transition, what specific plans have your organizations made for oversight for each
        project and program? Do they include special arrangements for U.S. civilian oversight
        access, local-national monitoring, third-party monitoring, periodic checks of work performed
        by local and third-party monitors, remote or automated monitoring, self-certification
        arrangements, other forms of oversight, or simple acceptance of higher risks?

Due to the importance of this issue, please provide the requested information within 30 days of the
date of this letter. Should your staff have any questions regarding this request, they should contact


Thank you in advance for your continued assistance.

                                                                     Sincerely,




                                                                     John F. Sopko
                                                                     Special Inspector General
                                                                      for Afghanistan Reconstruction




     3
         SIGAR, letter of inquiry regarding planned and ongoing reconstruction projects, 22 February 2013.


SIGAR 14-4-SP/Oversight Bubble Inquiry                                                                       Page 3
cc:

General Lloyd J. Austin Ill
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Ambassador James Blair Cunningham
 U.S. Ambassador to Afghanistan

William Hammink, Mission Director
 U.S. Agency for International Develop/Afghanistan


Attachments: Afghanistan oversight-bubble maps (4)
             Illustration of oversight bubble




SIGAR 14-4-SP/Oversight Bubble Inquiry                 Page 4
                                         Afghanistan Oversight Access 2009                                                                   U       z    b       e       k       i       s           t       a       n            ^Dushanbe
                                                                                                                                                                                                                                                                            T   a   j       i   k       i   s   t   a   n

                                                                                                                                                                                                                                                                                                                                  China


       T          u          r               k               m       e               n                   i               s       t               a            n


                                                                                                                                                                                                                                                          Badakhshan
                                                                                                                                                                                 Mazar-E                                  K u n d u z
                                                                                                                                                 J o w z j a n                   Sharif
                                                                                                                                                                                !                                                           Ta k h a r
                                                                                                                                                                          B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan
                                                                                                                                                                                                                              B a g h l a n
                                                                                                                                                      S a r - e       P u l

                                                                                                                                                                                                                                            Panjshayr
                                                                     B       a       d       g       h       i       s
                                                                                                                                                                                                                                                         Nuristan
                                                                                                                                                                                                                                             Kapisa
                                                                                                                                                                                                                              P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r

                                                                                                                                                                                                                                     Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k
                                                                                                 G               h           o       r                                                                                                                N a n g a r h a r
                                                                                                                                                                                                                                     Logar                                                                                  I n d i a
                                                                                                                                                                                                                                                                                                            Islamabad
                                                                                                                                                                                                                                                                                                            ^
                                                                                                                                                     D a y k u n d i
                                                                                                                                                                                                                                    Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t
Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                        P       a          k       i           s       t       a       n
                         F               a               r       a                   h                                                   U r u z g a n
                                                                                                                                                                                                                          P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED

                                                                                                                                             Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                    2009 Oversight Access Coverage
                                                                                                                                                                                                                                                                     68% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d
                                                                                                                             K   a   n       d        a   h       a   r

                                     N i m r o z                                                                                                                                                                                                                    Provinces

                                                                                                                                                                                                                                                           This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                           for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                           oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                           conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                           weather and security conditions.
                                                                                                                                                                                                                                                                                                                    I   n   d    i           a

Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                Sources: Esri, USGS, NOAA
                                         Afghanistan Oversight Access 2011                                                                   U       z    b       e       k       i       s           t       a       n            ^Dushanbe
                                                                                                                                                                                                                                                                            T   a   j       i   k       i   s   t   a   n

                                                                                                                                                                                                                                                                                                                                  China


       T          u          r               k               m       e               n                   i               s       t               a            n


                                                                                                                                                                                                                                                          Badakhshan
                                                                                                                                                                                 Mazar-E                                  K u n d u z
                                                                                                                                                 J o w z j a n                   Sharif
                                                                                                                                                                                !                                                           Ta k h a r
                                                                                                                                                                          B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan
                                                                                                                                                                                                                              B a g h l a n
                                                                                                                                                      S a r - e       P u l

                                                                                                                                                                                                                                            Panjshayr
                                                                     B       a       d       g       h       i       s
                                                                                                                                                                                                                                                         Nuristan
                                                                                                                                                                                                                                             Kapisa
                                                                                                                                                                                                                              P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r

                                                                                                                                                                                                                                     Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k
                                                                                                 G               h           o       r                                                                                                                N a n g a r h a r
                                                                                                                                                                                                                                     Logar                                                                                  I n d i a
                                                                                                                                                                                                                                                                                                            Islamabad
                                                                                                                                                                                                                                                                                                            ^
                                                                                                                                                     D a y k u n d i
                                                                                                                                                                                                                                    Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t
Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                        P       a          k       i           s       t       a       n
                         F               a               r       a                   h                                                   U r u z g a n
                                                                                                                                                                                                                          P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED

                                                                                                                                             Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                    2011 Oversight Access Coverage
                                                                                                                                                                                                                                                                     59% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d
                                                                                                                             K   a   n       d        a   h       a   r

                                     N i m r o z                                                                                                                                                                                                                    Provinces

                                                                                                                                                                                                                                                           This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                           for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                           oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                           conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                           weather and security conditions.
                                                                                                                                                                                                                                                                                                                    I   n   d    i           a

Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                Sources: Esri, USGS, NOAA
                                         Afghanistan Oversight Access 2013                                                                   U       z    b       e       k       i       s           t       a       n            ^Dushanbe
                                                                                                                                                                                                                                                                            T   a   j       i   k       i   s   t   a   n

                                                                                                                                                                                                                                                                                                                                  China


       T          u          r               k               m       e               n                   i               s       t               a            n


                                                                                                                                                                                                                                                          Badakhshan
                                                                                                                                                                                 Mazar-E                                  K u n d u z
                                                                                                                                                 J o w z j a n                   Sharif
                                                                                                                                                                                !                                                           Ta k h a r
                                                                                                                                                                          B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan
                                                                                                                                                                                                                              B a g h l a n
                                                                                                                                                      S a r - e       P u l

                                                                                                                                                                                                                                            Panjshayr
                                                                     B       a       d       g       h       i       s
                                                                                                                                                                                                                                                         Nuristan
                                                                                                                                                                                                                                             Kapisa
                                                                                                                                                                                                                              P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r

                                                                                                                                                                                                                                     Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k
                                                                                                 G               h           o       r                                                                                                                N a n g a r h a r
                                                                                                                                                                                                                                     Logar                                                                                  I n d i a
                                                                                                                                                                                                                                                                                                            Islamabad
                                                                                                                                                                                                                                                                                                            ^
                                                                                                                                                     D a y k u n d i
                                                                                                                                                                                                                                    Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t
Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                        P       a          k       i           s       t       a       n
                         F               a               r       a                   h                                                   U r u z g a n
                                                                                                                                                                                                                          P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED

                                                                                                                                             Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                    2013 Oversight Access Coverage
                                                                                                                                                                                                                                                                     45% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d
                                                                                                                             K   a   n       d        a   h       a   r

                                     N i m r o z                                                                                                                                                                                                                    Provinces

                                                                                                                                                                                                                                                           This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                           for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                           oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                           conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                           weather and security conditions.
                                                                                                                                                                                                                                                                                                                    I   n   d    i           a

Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                Sources: Esri, USGS, NOAA
                         Afghanistan Possible Oversight Access 2014
                                                                                                                                             U       z    b       e       k       i       s           t       a       n            ^Dushanbe
                                                                                                                                                                                                                                                                            T   a   j       i   k       i   s   t   a   n

                                                                                                                                                                                                                                                                                                                                  China


       T          u          r               k               m       e               n                   i               s       t               a            n


                                                                                                                                                                                                                                                          Badakhshan
                                                                                                                                                                                 Mazar-E                                  K u n d u z
                                                                                                                                                 J o w z j a n                   Sharif
                                                                                                                                                                                !                                                           Ta k h a r
                                                                                                                                                                          B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan
                                                                                                                                                                                                                              B a g h l a n
                                                                                                                                                      S a r - e       P u l

                                                                                                                                                                                                                                            Panjshayr
                                                                     B       a       d       g       h       i       s
                                                                                                                                                                                                                                                         Nuristan
                                                                                                                                                                                                                                             Kapisa
                                                                                                                                                                                                                              P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r

                                                                                                                                                                                                                                     Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k
                                                                                                 G               h           o       r                                                                                                                N a n g a r h a r
                                                                                                                                                                                                                                     Logar                                                                                  I n d i a
                                                                                                                                                                                                                                                                                                            Islamabad
                                                                                                                                                                                                                                                                                                            ^
                                                                                                                                                     D a y k u n d i
                                                                                                                                                                                                                                    Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t
Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                        P       a          k       i           s       t       a       n
                         F               a               r       a                   h                                                   U r u z g a n
                                                                                                                                                                                                                          P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED

                                                                                                                                             Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                 2014 Possible Oversight Access Coverage
                                                                                                                                                                                                                                                                 21% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d
                                                                                                                             K   a   n       d        a   h       a   r

                                     N i m r o z                                                                                                                                                                                                                 Provinces

                                                                                                                                                                                                                                                           This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                           for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                           oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                           conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                           weather and security conditions.
                                                                                                                                                                                                                                                                                                                    I   n   d    i           a

Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                Sources: Esri, USGS, NOAA
ILLUSTRATION OF AN OVERSIGHT BUBBLE


                                        Extent of medical and
                                           security support




                    U.S. Government
                     Medical Facility
                                                     Reconstruction
                                                         Sites
